APPENDIX

ii
APPENDIX
TABLE OF CONTENTS
Appendix
A

Appendix
B

Appendix
C
Appendix
D

Appendix
E

Opinion of the United States Court of
Appeals for the Fifth Circuit,
No. 20-50193
Dolores Machuca v. Louis DeJoy
(December 16, 2020) ........................... 1
Order of United States District Court
Western District of Texas
Pecos Division
Civ. Action No. P:17-CV-00046-DC
Dolores Machuca v. Megan J. Brennan,
Postmaster General and Chief Executive
Officer, United States Postal Service.
(February 13, 2020) ............................. 5
U.S. Equal Employment Opportunity
Commission Decision,
(July 14, 2017) .................................... 7
Americans with Disabilities Act of 1990
42 U.S.C. §§ 12101-12102, et seq.,
§§12111-12112, et seq., and 42 U.S.C. §
12133
(1990) ................................................. 27
Rehabilitation Act of 1973 § 504, 29
U.S.C. § 794
(1973) .................................................30

Pet. App. 1
APPENDIX A
United States Court of Appeals
for the Fifth Circuit
No. 20-50193
Summary Calendar

United States Court of
Appeals
Fifth Circuit

FILED
December 16, 2020

Lyle W. Cayce
Clerk

DOLORES MACHUCA,

Plaintiff—Appellant,
Versus
LOUIS DEJOY, Postmaster General and Chief
Executive Offier, United States Postal Service,
Defendant—Appellee.

Appeal from the United States District Court
for the Western District of Texas
USDC No. 4:17-CV-46
Before Haynes, Willett, and Ho, Circuit Judges.
Per Curiam:*
Dolores Machuca, a mail carrier with the
United States Postal Service, sued the Postmaster
General for disability discrimination, retaliation,
failure

to

accommodate,

and

hostile

work

environment under the Americans with Disabilities

Pet. App. 2
Act and § 504 of the Rehabilitation Act. 1 The district
court granted summary judgment for the Postmaster
General, reasoning that ADA claims cannot be
maintained against the federal government and that
Machuca failed to exhaust her Rehabilitation Act
claims. The court also denied Machuca’s belated
attempt to bring new claims..
On appeal, Machuca only challenges the ruling
on her Rehabilitation Act claims. But she concedes the
key point: She failed to exhaust her administrative
remedies. She nonetheless argues that her case
should proceed as a matter of equity because the
Postmaster General did not timely present failure to
exhaust as a defense. Specifically, she contends that
the Postmaster General should have raised the issue
in a motion to dismiss instead of at summary
judgment. As support, Machuca relies on Davis v. Fort
Bend County’s instruction that “[f]ailure to exhaust is
an affirmative defense that should be pleaded.” 893
F.3d 300, 307 (5th Cir. 2018), aff’d, 139 S. Ct. 1843
(2019). Machuca’s reliance on Davis is misplaced. The
Postmaster General pleaded failure to exhaust as an
affirmative defense in his answer to Machuca’s second
amended complaint. And Davis does not address when
the defense should be litigated on the merits. After
1 Postmaster General Louis DeJoy is automatically substituted
for Megan J. Brennan as the defendant under Federal Rule of
Appellate Procedure 43(c)(2).

Pet. App. 3
completing the necessary discovery, the Postmaster
General moved for summary judgment. There is no
authority requiring a defendant to assert an
affirmative defense at the motion to dismiss stage,
particularly where, as here, discovery is necessary to
establish the merits of that defense
Machuca also argues that factual disputes
preclude summary judgment. Because Machuca’s
failure to exhaust is dispositive, the district court did
not reach this argument, and neither do we.
AFFIRMED.

Pet. App. 4
United States Court of Appeals
for the Fifth Circuit
No. 20-50193
Summary Calendar
DOLORES MACHUCA,

United States Court of
Appeals
Fifth Circuit

FILED
December 16, 2020

Lyle W. Cayce
Clerk

Plaintiff—Appellant,
Versus
LOUIS DEJOY, Postmaster General and Chief
Executive Offier, United States Postal Service,
Defendant—Appellee.

Appeal from the United States District Court
for the Western District of Texas
USDC No. 4:17-CV-46
Before Haynes, Willett, and Ho, Circuit Judges,
JUDGMENT
This cause was considered on the record on
appeal and the briefs on file.
IT IS ORDERED and ADJUDGED that the
judgment of the District Court is AFFIRMED.
IT IS FURTHER ORDERED that Appellant
pay to Appellee the costs on appeal to be taxed by the
Clerk of this Court.

Pet. App. 5
APPENDIX B
Case 4:17-cv-00046-DC Document 47 Filed 02/13/20
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
PECOS DIVISION
DOLORES MACHUCA,
Plaintiff,
VS.

P:17-CV-00046-DC

MEGAN J. BRENNAN, POSTMASTER
GENERAL AND CHIEF EXECUTIVE
OFFICER, UNITED STATES POSTAL
SERVICE,
Defendant.
FINAL JUDGMENT
On this day, the Court entered an Order
Adopting the Report and Recommendation of United
States Magistrate Judge David B. Fannin. The Court,
in adopting the Report and Recommendation,
dismissed with prejudice all of Plaintiff Dolores
Machuca’s claims against Defendant Megan J.
Brennan, Postmaster General and Chief Executive
Officer, United States Postal Service. The Court now
enters its Final Judgment pursuant to Federal Rule of
Civil Procedure 58.
It is therefore ORDERED that Defendant’s
Motion for Summary Judgment is GRANTED.

Pet. App. 6
It is further ORDERED that all of Plaintiff’s
claims against Defendant are DISMISSED WITH
PREJUDICE.
It is further ORDERED that the final pretrial
hearing set for March 16, 2020, and jury trial set for
April 21, 2020, are VACATED.
The Court finally ORDERS the Clerk of the
Court to CLOSE this case.
It is so ORDERED.
SIGNED this 13th day of February, 2020

DAVID COUNTS
United States District Judge

Pet. App. 7
APPENDIX C
U.S. EQUAL EMPLOYMENT OPPORTUNITY
COMMISSION
Office of Federal Operations
P.O. Box.77960
Washington, DC 20013
Dolores G. Machuca, a/k/a
Cecile S., 1
Complainant,
v.
Megan J. Brennan,
Postmaster General,
United States Postal Service
(Southern Area),
Agency.
Appeal No. 0120171639
Agency No. 40-780-0024-17
DECISION
Complainant filed a timely appeal with this
Commission from the final Agency's decision (FAD)
dated March 27, 2017, dismissing her complaint of
unlawful employment discrimination in violation
of Section 501 of the Rehabilitation Act of 1973
(Rehabilitation Act), as amended, 29 U.S.C. § 791
This case has been randomly assigned a pseudonym which
will replace Complainant's name when the decision is
published to non-parties and the Commission's website.
1

Pet. App. 8
et seq. Upon review, the Commission finds that the
Agency's dismissal of the claims on the grounds of
untimely EEO Counselor contact and for failure to
state a claim was proper and therefore the FAD is
AFFIRMED.
BACKGROUND
At the time of events giving rise to this complaint,
Complainant worked as a City Carrier at the
Agency's Post Office in Pecos, Texas. On March 7,
2017, Complainant filed a formal complaint
alleging that the Agency subjected her to
discrimination on the bases of disability (back) and
reprisal for prior protected EEO activity when:
1. On May 26, 2012, Pecos Post Office
management improperly completed and/or
submitted her paperwork for Occupational
Disease and Illness.
2. On August 20, 2013, the Agency changed
her employee benefits after she began a
Limited Duty/Modified Work Assignment.
3. On April 23, 2014, she was issued a Letter of
Demand (702542115) for $898.25.
4. On May 28, 29, and 30, 2015, the
Postmaster required her to work outside of her
Limited Duty/Modified Work Assignment and
medical restrictions.
5. On June 1, 2015, after a doctor determined
her medical conditions had worsened, the
Agency reduced her work hours from six
hours per day to four hours per day and
further reduced her annual leave.
6. On November 10, 2016, the union steward

Pet. App. 9
falsely accused her of holding up the vacation
calendar.
7. On November 19, 2016, the officer in charge
was unable to provide a sufficient
explanation as to why the Postmaster went
against her Limited Duty/Modified Work
Assignment and medical restrictions, and
why her annual leave was reduced.
8. On December 3, 2016, she was informed that
the management official who had previously
worked on resolving her situation(s) had
recently retired, and the officer in charge was
unable to provide the name of the
management official who would now resolve
her situation(s).
On March 27, 2017, the Agency issued a final
decision dismissing claims 1, 2, 3, 4, and 5 for
untimely EEO Counselor contact pursuant to 29
C.F.R. § 1614.107(a)(2), and dismissing claims 6, 7,
and 8 for failure to state a claim pursuant to 29
C.F.R. § 1614.107(a)(l). Claim 3 was also dismissed
alternatively on the grounds of failure to state a
claim.
ANALYSIS AND FINDINGS
Claims 2, 4, and 5-Untimely EEO Counselor
Contact
The regulation set forth at 29 C.F.R. §
1614.107(a)(2) states, in relevant part, that the
agency shajl dismiss a complaint or a portion of a
complaint that fails to comply with the applicable
time limits contained in 29 C.F.R. § 1614.105.

Pet. App. 10
Under 29 C.F.R. § 1614.105(a)(l), an aggrieved
person must initiate contact with an EEO
Counselor within 45 days of the date of the matter
alleged to be discriminatory, the effective date of an
alleged discriminatory personnel action, or the date
that the aggrieved person knew or reasonably
should have known of the discriminatory event or
personnel action.
The record discloses that claims 2, 4, and 5 2
occurred on August 20, 2013, May 28, 29, and 30,
2015, and June 1, 2015 respectively. The record also
discloses that Complainant did not initiate contact
with an EEO Counselor until November 19, 2016,
which is beyond the 45-day limitation period. 3
On appeal, Complainant has presented no
persuasive arguments or evidence warranting an
extension of the time limit for initiating EEO
Counselor contact. Therefore, the Commission finds
that claims 2, 4, and 5 were properly dismissed
pursuant to 29 C.F.R. § 1614.107(a)(2) for untimely
EEO Counselor contact.

Claim 5 is not entirely clear and Complainant is herself not
clear. However, it appears from reading the record that
Complainant is claiming annual leave loss. To the extent
that this loss is related to her workers' compensation claim, it
does not state a claim under the discrimination statutes.
3 Here, Complainant alleges a denial of an accommodation on
the three May 2015 dates but some form of accommodation was
given by June 1, 2015. Therefore, the recurring violation
approach explained in Mitchell v. Dep't of Commerce, EEOC
Appeal No. 01934120 (Mar. 4, 1994) would not be applicable.
2

Pet. App. 11
Claims 1, 3, 6, 7, and 8-Failure to State a Claim
The regulation set forth at 29 C.F.R. §
1614.107(a)(l) states, in relevant part, that an agency
shall dismiss a complaint that fails to state a claim. The
Commission' s federal sector case precedent has long
defined an "aggrieved employee" as one who suffers a
present harm or loss with respect to a term, condition, or
privilege of employment for which there is a remedy.
Diaz v. Dep't of the Air Force, EEOC Request No.
05931049 (Apr. 21, 1994).
Further, a complaint shall be dismissed for failure
to state a claim where the complainant impermissibly uses
the EEO complaint process to lodge a collateral attack on
another forum's proceeding. A claim that can be
characterized as a collateral attack, by definition, involves
a challenge to another forum's proceeding, such as the
grievance process, the workers' compensation process, an
internal agency investigation, or state or federal
litigation. See Fisher v. Dep't of Defense, EEOC Request
No. 05931059 (July 15, 1994). Accordingly, claims 1 and
6 pertained to the grievance and workers' compensation
process. In addition, the proper forum for a complainant to
raise challenges to the Letter of Demand, as set forth in
claim 3, is under the Debt Collection Act process.
Complainant v. U.S. Postal Serv., EEOC Appeal No.
0120132152 (Aug. 14, 2015).
The Commission finds that claims 1, 3, 6, 7, and
8 fail to state a claim under the EEOC regulations
because Complainant failed to show that he suffered harm
or loss with respect to a term, condition, or privilege of
employment for which there is a remedy. See Diaz.
Therefore, the Commission finds that claims 1, 3, 6, 7,
and 8 were properly dismissed pursuant to 29 C.F.R. §
1614.107(a)(l) for failure to state a claim.
CONCLUSION

Pet. App. 12

Accordingly, the Agency's final decision
dismissing
Complainant's
complaint
is
AFFIRMED.
STATEMENT OF RIGHTS - ON APPEAL
RECONSIDERATION (M0617)
The Commission may, in its discretion,
reconsider the decision in this case if the Complainant
or the Agency submits a written request containing
arguments or evidence which tend to establish that:

1. The appellate decision involved a clearly
erroneous interpretation of material fact or
law; or
2. The appellate decision will have a substantial
impact on the policies, practices, or operations
of the Agency.
Requests to reconsider, with supporting
statement or brief, must be filed with the Office of
Federal Operations (OFO) within thirty (30) calendar
days of receipt of this decision. A party shall have
twenty (20) calendar days of receipt of another party's
timely request for reconsideration in which to
submit a brief or statement in opposition. See 29
C.F.R § 1614.405; Equal Employment Opportunity
Management Directive for 29 C.F.R. Part 1614 (EEO
MD-110), at Chap. 9 § VII.B (Aug. 5, 2015). All
requests and arguments must be submitted to the
Director, Office of Federal Operations, Equal
Employment
Opportunity
Commission.
Complainant's request may be submitted via regular
mail to P.O. Box 77960, Washington, DC 20013, or by

Pet. App. 13
certified mail to 131 M Street, NE, Washington, DC
20507. In the absence of a legible postmark, the request
to reconsider shall be deemed timely filed if it is received
by mail within five days of the expiration of the
applicable filing period. See 29 C.F.R. §·1614.604.
The agency's request must be submitted in digital
format via the EEOC's Federal Sector EEO Portal
(FedSEP). See 29 C.F.R. § 1614.403(g). The request or
opposition must also include proof of service on the
other party.
Failure to file within the time period will result
in dismissal of your request for reconsideration as
untimely,
unless
extenuating
circumstances
prevented the timely filing of the request. Any
supporting documentation must be submitted with
your request for reconsideration. The Commission will
consider requests for reconsideration filed after the
deadline only in very limited circumstances. See 29
C.F.R. § 1614.604-(c).
COMPLAINANT'S RIGHT TO FILE A CIVIL ACTION
(T0610)
This decision affirms the Agency's final
decision/action in part, but it also requires the Agency
to continue its administrative processing of a portion
of your complaint. You have the right to file a civil
action in an appropriate United States District Court
within ninety (90) calendar days from the date that
you receive this decision on both that portion of your
complaint which the Commission has affirmed and
that portion of the complaint which has been
remanded for continued administrative processing. In
the alternative, you may file a civil action after one
hundred eighty (180) calendar days of the date you

Pet. App. 14
filed your complaint with the Agency, or your appeal
with the Commission, until such time as the Agency
issues its final decision on your complaint. If you file
a civil action, you must name as the defendant in the
complaint the person who is the official Agency head
or department head, identifying that person by his or
her full name and official title. Failure to do so may
result in the dismissal of your case in court. "Agency"
or "department" means the national organization, and
not the local office, facility or department in which you
work. If you file a request to reconsider and also file a
civil action, filing a civil action will terminate the
administrative processing of your complaint.
RIGHT TO REQUEST COUNSEL
(Z0815)
If you want to file a civil action but cannot pay
the fees, costs, or security to do so, you may request
permission from the court to proceed with the civil action
without paying these fees or costs. Similarly, if you
cannot afford an attorney to represent you in the civil
action, you mayrequest the court to appoint an attorney
for you. You must submit the requests for waiver of court
costs or appointment of an attorney directly to the court, not
the Commission. The court has the sole discretion to
grant or deny these types of requests. Such requests
do not alter the time limits for filing a civil action
(please read the paragraph titled Complainant's Right
to File a Civil Action for the specific time limits).
FOR THE COMMISSION:

Pet. App. 15

Carlton M. Hadden, Director
Office of Federal Operations
Jul 14, 2017
Date

Pet. App. 16
CERTIFICATE OF MAILING
For timeliness purposes, the Commission will
presume that this decision was received within five (5)
calendar days after it was mailed. I certify that this
decision was mailed to the following recipients on the
date below:
Dolores G. Machuca
1300 S. Cherry St. #52
Pecos, TX 79772
U.S. Postal Service (Southern)
NEEOISO - Appeals
U.S. Postal Service PO Box 21979
Tampa, FL 33622-1979

Jul 14, 2017
Date

Pet. App. 17
U.S. EQUAL EMPLOYMENT OPPORTUNITY
COMMISSION
Office of Federal Operations
P.O. Box.77960
Washington, DC 20013
Dolores G. Machuca, a/k/a
Cecile S., 1
Complainant,
v.
Megan J. Brennan,
Postmaster General,
United States Postal Service
(Southern Area),
Agency.
Appeal No. 0120160418
Agency No. 40-780-0182-15
DECISION
Complainant filed a timely appeal with this
Commission from the Agency's final decision dated
October 15, 2015, dismissing a formal complaint of
unlawful employment discrimination in violation of
Title VII of the Civil Rights Act of 1964 (Title VII), as
amended, 42 U.S.C. § 2000e et seq.

This case has been randomly assigned a pseudonym which
will replace Complainant's name when the decision is
published to non-parties and the Commission's website.
1

Pet. App. 18
BACKGROUND
During the period at issue, Complainant worked
as a City Carrier at the Agency's Pecos, Texas Post
Office .
On September 25, 2015, Complainant filed the
instant formal complaint. Therein, Complainant alleged
that the Agency subjected Complainant to
discrimination in reprisal for prior EEO activity
when:
1. on an unspecified date, management
threatened to charge Absent Without Leave;
2. on July 28, 2015, the supervisor said only
English should be spoken at work;
3. on July 31, 2015, Complainant was
notified that the Department of Labor's
Office of Workers Compensations Program
had denied his claim; and
4. on August 29, 2015, the Officer-in-Charge
told Complainant that he would help assist
in resolving various concerns, but left
before doing so.
In its October 15, 2015 final decision, the
Agency dismissed the formal complaint for failure to
state a claim, pursuant to 29 C.F.R. §
1614.107(a)(l), finding that Complainant was not
aggrieved. Regarding claims 1 - 2 and 4, the Agency
noted that Complainant was not disciplined or

Pet. App. 19
subjected to any adverse personnel action as a result
of the alleged events.
Regarding claim 3, the Agency found that this
claim constitutes a collateral attack on Department
of Labor's Office of Workers Compensations
Program (OWCP) process concerning OWCP claims.
The Agency stated that Complainant should have
raised allegations through the OWCP process, not
through the EEO process.
The instant appeal followed.
ANALYSIS AND FINDINGS
As a threshold matter, we find that the
Agency improperly fragmented Complainant's
claim of ongoing discriminatory harassment/hostile
work environment by dismissing the formal
complaint for failure to state a claim. Specifically,
the Agency determined that claim 3 was a collateral
attack on the OWCP process, and that in regard to
claims l - 2 and 4, Complainant was not aggrieved.
A fair reading of the formal complaint,
Complainant claimed to being subjected to a series
of related incidents of harassment from June 2015
through present.
In the attachment to the instant formal
complaint, Complainant states that management
threatened placement on Absence Without Leave "for
no reason I [Complainant] had and have a copy of PS
Form -3971 approved for my annual leave of 6-1515 tbru 6-20-15." Complainant also states that
when the supervisor mentioned only English

Pet. App. 20
should be spoken at the Pecos Post Office,
Complainant asked him "where in the manual does
it say no Spanish speaking, [supervisor] said it does
say in there. I [Complainant] asked [supervisor]
again where at [supervisor] said it is in the big sign
when you cross the border coming into the United
States of America, it says America English speaking
only."
Regarding claim 4 (which the Agency .found
addressed an OWCP matter), Complainant
expressly detailed the event of August 29, 2015, the
Officer-in-Charge indicated that he would help
Complainant resolve various concerns, but left before
doing so. Complainant indicated that there were
unsuccessfully attempts to raise this matter to the
attention of other Agency officials . since the Pecos
Post Office had at least five different Officers-inCharge this year.
As a remedy, Complainant requested "to be
treated in a right manner and not to be retaliated or
threaten by any managers or upper management just
because there is no record keeping for me
(Complainant] in the United States Post Office of
Pecos, TX. 79772" and compensatory damages. These
matters, taken together, state a justiciable
harassment claim. See Cervantes v. USPS, EEOC
Request No. 05930303 (November 12, 1993).
Finally, however, to the extent that
Complainant claimed that the OWCP claim was
denied (as identified hi claim 3), such matters
constitute a collateral attack on the OWCP grievance
process. An employee cannot use the EEO complaint

Pet. App. 21
process to lodge a collateral attack on another
proceeding. See Wills v, Department of Defense.
EEOC Request No. 05970596 (July 30, 1998);
Kleinman v. United States Postal Service. EEOC
Request No. 05940585 (September 22, 1994); Lingad
v. United States Postal Service, EEOC Request No.
05930106 (June 24, 1993). The proper forum for
Complainant to have raised challenges to actions
which occurred during the OWCP process is within
that process itself.
The Agency's final decision dismissing claim 3 is
AFFIRMED. We REVERSE the Agency's final
decision dismissing the remaining claims, defined
herein as a harassment/hostile work environment
claim), and we REMAND this matter to the Agency
for further processing in accordance with the ORDER
below.
ORDER (B0610)

The Agency is ordered to process claims 1 - 2 and
4 (harassment/hostile work environment) in accordance
with 29 C.F.R. § 1614.108 et seq. The Agency shall
acknowledge to the Complainant that it has received
the remanded claim within thirty (30) calendar days
of the date this decision becomes final.
The Agency shall issue to Complainant a copy
of the investigative file and also shall notify
Complainant of the appropriate rights within one
hundred fifty (150) calendar days
the date this
decision becomes final, unless the matter is otherwise
resolved prior to that time. If the Complainant requests
a final decision without a hearing, the Agency shall issue
a final decision, within sixty (60) days of receipt of
Complainant's request.

Pet. App. 22
A copy of the Agency's letter of acknowledgment
to Complainant and a copy of the notice that transmits
the investigative file and notice of rights must be sent
to the Compliance Officer as referenced below.
IMPLEMENTATION OF THE COMMISSION'S DECISION
(K0610)

Compliance with the Commission’s corrective
action is mandato1y. The Agency shall submit its
compliance report within thirty (30) calendar days of
the completion of all ordered corrective action. The report
shall be submitted to the Compliance Officer, Office of
Federal Operations, Equal Employment Opportunity
Commission, P.O. Box 77960, Washington, DC 20013.
The Agency's report must contain supporting
documentation, and the Agency must send a copy of all
submissions to the Complainant. If the Agency does not
comply with the Commission's order, the Complainant
may petition the Commission for enforcement of the
order 29 C.F.R.§ 1614.SOJ( a) . The Complainant also
has the right to file a civil action to enforce compliance
with the Commission's order prior to or following an
administrative petition for enforcement. See 29 C.F.R.
§§ 1614.407, 1614.408, and 29 C.F.R. § 1614.503(g).
Alternatively, the Complainant has the right to file a
civil action on the underlying complaint in accordance
with the paragraph below entitled "Right to File a
Civil Action." 29 C.F.R. §§ 1614.407 and 1614.408. A
civil action for enforcement or a civil action on the
underlying complaint is subject to the deadline stated
in 42 U.S.C. 2000e-16(c) (1994 & Supp. IV 1999). If the
Complainant tiles a civil action, the administrative
processing of the complaint, including any petition for
enforcement, will be terminated. See 29 C.F.R. §
1614.409.

Pet. App. 23
STATEMENT OF RIGHTS - ON APPEAL
RECONSIDERATION (M0610)

The Commission may, in its discretion,
reconsider the decision in this case if the
Complainant or the Agency submits a written
request containing arguments or evidence which
tend to establish that:
1. The appellate decision involved a clearly
erroneous interpretation of material fact or law;
or
2. The appellate decision will have a substantial
impact on the policies, practices, or operations
of the Agency.
Requests to reconsider, with supporting statement
or brief, must be filed with the Office of Federal
Operations (OFO) within thirty (30) calendar days of
receipt of this decision or within twenty (20) calendar
days of receipt of another party's timely request for
reconsideration. See 29 C.F.R. § 1614.405; Equal
Employment. Opportunity Management Directive for 29
C.F.R. Part 1614 (EEO MD-ll 0), at 9-18 (November 9,
1999). All requests and arguments must be submitted
to the Director, Office of Federal Operations, Equal
Employment Opportunity Commission, P.0. Box 77960,
Washington, DC 20013. In the absence of a legible
postmark, the request to reconsider shall be deemed
timely filed if it is received by mail within five days of
the expiration of the applicable filing period.
29
C.F.R. § 1614.604. The request or opposition must also
include proof of service on the other party.

Pet. App. 24
Failure to file within the time period will result in
dismissal of your request for reconsideration as
untimely, unless extenuating circumstances prevented
the timely filing of the request. Any supporting
documentation must be submitted with your request
for reconsideration. The Commission will consider
requests for reconsideration filed after the deadline
only in very limited circumstances. See 29 C.F.R. §
1614.604(c).
COMPLAINANT'S RIGHT TO FILE A CIVIL ACTION
(T0610)

This decision affirms the Agency>s final
decision/action in part, but it also requires the Agency to
continue its administrative processing of a portion of
your complaint. You have the right to file a civil action
in an appropriate United States District Court
within ninety (90) calendar days from the date that
you receive this decision on both that portion of your
complaint which the Commission has affirmed and
that portion of the complaint which has been
remanded for continued administrative proceeding. In
the alternative, you may file a civil action after one
hundred and eighty (180) calendar days of the date
you filed your complainant with the Agency, or your
appeal with the Commission, until such time as the
Agency issues its final decision on your complaint. If
you file a civil action, you must name as the defendant
in the complaint the person who is the official Agency
head or department head, identifying that person by
his or her full name and official title. Failure to do so
may result in the dismissal of your case in court.
"Agency" or "department'' means the national
organization, and not the local office, facility or

Pet. App. 25
department in which you work. If you file a request to
reconsider and also file a civil action, filing a civil
action will terminate the administrative processing of
your complaint.
RIGHT TO REQUEST COUNSEL (Z0815)
If you want to file a civil action but cannot pay
the fees, costs, or security to do so, you may request
permission from the court to proceed with the civil action
without paying these fees or costs. Similarly, if you
cannot afford an attorney to represent you in the civil
action, you may request the court to appoint an
attorney for you. You must submit the requests for
waiver of court costs or appointment of an attorney
directly to the court, not the Commission. The court
has the sole discretion to grant or deny these types of
requests. Such requests do not alter the time limits for
filing a civil action (please read the paragraph titled
Complainants Right to File a Civil Action for the
specific time limits).

Carlton M. Hadden,
Director Office of Federal Operations
Apr 08 2016
Date

Pet. App. 26
CERTIFICATE OF MAILING
For timeliness purposes, the Commission will
presume that this decision was received within five (5)
calendar days after it was mailed. I certify that this
decision was mailed to the following recipients on the
date below:

Dolores G. Machuca 1300 S.
Cherry St. #52
Pecos, TX 79772
U.S. Postal Service (Southern)
NEEOISO - Appeals
U.S. Postal Service PO Box
21979
Tampa, FL 33622-1979

Apr 08 2016
Date

Pet. App. 27
APPENDIX D
42 U.S.C. § 12101
(a) Findings
The Congress finds that(1) physical or mental disabilities in no way diminish
a person's right to fully participate in all aspects of
society, yet many people with physical or mental
disabilities have been precluded from doing so because
of discrimination; others who have a record of a
disability or are regarded as having a disability also
have been subjected to discrimination;
(3) discrimination
against
individuals
with
disabilities persists in such critical areas as
employment, housing, public accommodations,
education,
transportation,
communication,
recreation, institutionalization, health services,
voting, and access to public services;
(4) unlike individuals who have experienced
discrimination on the basis of race, color, sex, national
origin, religion, or age, individuals who have
experienced discrimination on the basis of disability
have often had no legal recourse to redress such
discrimination;
42 U.S.C. § 12102
(1) Disability
The term "disability" means, with respect to an
individual-

Pet. App. 28
(A) a physical or mental impairment that
substantially limits one or more major life activities of
such individual;
(B) a record of such an impairment; or
(C) being regarded as having such an impairment (as
described in paragraph (3)).
42 U.S.C. § 12111
(8) Qualified individual
The term "qualified individual" means an individual
who, with or without reasonable accommodation, can
perform the essential functions of the employment
position that such individual holds or desires. For the
purposes of this subchapter, consideration shall be
given to the employer's judgment as to what functions
of a job are essential, and if an employer has prepared
a written description before advertising or
interviewing applicants for the job, this description
shall be considered evidence of the essential functions
of the job.
(9) Reasonable accommodation
The term "reasonable accommodation" may include(A) making existing facilities used by
employees readily accessible to and usable by
individuals with disabilities; and
(B) job restructuring, part-time or modified
work schedules, reassignment to a vacant position,
acquisition or modification of equipment or devices,
appropriate
adjustment
or
modifications
of
examinations, training materials or policies, the

Pet. App. 29
provision of qualified readers or interpreters, and
other similar accommodations for individuals with
disabilities.
42 U.S.C. § 12112
(a) General ruleNo covered entity shall discriminate
against a qualified individual on the basis of
disability in regard to job application procedures, the
hiring, advancement, or discharge of employees,
employee
compensation,
job
training,
and
other terms,
conditions,
and
privileges
of
employment.
42 U.S.C. § 12133
The remedies, procedures, and rights set forth in
section 794a of title 29 shall be the remedies,
procedures, and rights this subchapter provides
to any person alleging discrimination on the basis of
disability in violation of section 12132 of this title.

Pet. App. 30
APPENDIX E
29 U.S.C. § 794
(a) Promulgation of rules and regulations
No otherwise qualified individual with a disability in
the United States, as defined in section 705(20) of this
title, shall, solely by reason of her or his disability, be
excluded from the participation in, be denied the
benefits of, or be subjected to discrimination under
any program or activity receiving Federal financial
assistance or under any program or activity conducted
by any Executive agency or by the United States
Postal Service. The head of each such agency shall
promulgate such regulations as may be necessary to
carry out the amendments to this section made by the
Rehabilitation,
Comprehensive
Services,
and
Developmental Disabilities Act of 1978. Copies of any
proposed regulation shall be submitted to appropriate
authorizing committees of the Congress, and such
regulation may take effect no earlier than the
thirtieth day after the date on which such regulation
is so submitted to such committees.
(d) Standards used in determining violation of
section
The standards used to determine whether this section
has been violated in a complaint alleging employment
discrimination under this section shall be the
standards applied under title I of the Americans with
Disabilities Act of 1990 ( 42 U.S.C. 12111 et seq.) and
the provisions of sections 501 through 504, and
510,1 of the Americans with Disabilities Act of 1990 (
42 U.S.C. 12201-12204 and 12210 ), as such sections
relate to employment.

